                         CLOSEOUT FOR CASE M-97040013
On 17 April 1997, we received information about alle ations of misconduct in science
                                                                Z
from an NSF program director.' The complainant alleged that his post-doctoral
researcher3(the subject), who was supported by the complainant's NSF award: falsified
data in experiments he supervised for the complainant. After he had given these alleged
falsified data to the complainant, the subject allegedly altered experimental evidence to
make it conform to the falsified data. The complainant told the program director that he
had informed his institutionS about the allegations of misconduct in science and it had
initiated an inquiry. We contacted the institution and deferred our inquiry until the
institution completed its own.

After its inquiry had begun, the institution informed us that the subject, an employee of
the institution's ~oundation,~  had been terminated as an employee. As a result, the
subject had hired an attorney to represent him.

The institution's inquiry committee concluded that no formal investigation was
warranted. According to the its report, the committee had been unsuccessful in getting a
response directly from the subject about the allegations, instead receiving responses fiom
the subject's attorney that provided little substantive information. Separately, we learned
that the Foundation had reached a settlement agreement with the subject regarding his
termination. Both the institution and the inquiry committee assured us that the settlement
agreement had not influenced the committee's conclusion.

We concluded that the inquiry committee's report contained insufficient information to
evaluate either what allegations the committee considered or what evidence was used to
arrive at its conclusion. To determine whether fhe allegations were substantive, we
sought and received additional information fiom the institution, the institution's inquiry
committee members,the subject's attorney, and the subject. The evidence indicated that:
1) the laboratory environment was extremely disorganized with little to no supemhion by
the complainant or by other trained staff members familiar with basic experimental
protocol critical to the creation of reliable data. There was no consistent &ta recording
protocol developed for the experiment, which resulted in no consistent and clear data
record; 2) the subject's computerized research records were accidentally erased as part of
a laboratory clean up after the subject had been terminated fiom the Foundation; and




                                         -
 institution, was the subject's employer. The institution explained that, because the Foundation was
 separate h m the institution, the inquiry into the allegations could proceed.
                      CLOSEOUT FOR CASE M-97040013

3) the data the subject gave to the complainant were disputed by many student assistants,
who believed these data were inconsistent with their observations of the experiments.
The various explanations for the differences in the data were based on their visual
observations of the experiments at different times. None of the conflicting student
reports about the experiments were based on systematic record keeping. These reports
could not be corroborated.

We determined that the available information was inadequate to make a reasonable
determination about the substance of these allegations and that it was unreasonable to
expect that further efforts at information gathering would provide any significant new
information.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                       Page 2 of 2
